<html>
<title> - [H.A.S.C. No. 114-23] NAVAL COOPERATIVE STRATEGY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                                  
 
                         [H.A.S.C. No. 114-23]

                       NAVAL COOPERATIVE STRATEGY

                               __________

                             JOINT HEARING

                               before the

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                                 of the

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                          [Serial No. 114-10]

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 18, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-225                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                                     
                      COMMITTEE ON ARMED SERVICES
             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
STEVEN M. PALAZZO, Mississippi       JAMES R. LANGEVIN, Rhode Island
BRADLEY BYRNE, Alabama               RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          MADELEINE Z. BORDALLO, Guam
DUNCAN HUNTER, California, Vice      HENRY C. ``HANK'' JOHNSON, Jr., 
    Chair                                Georgia
VICKY HARTZLER, Missouri             SCOTT H. PETERS, California
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
RYAN K. ZINKE, Montana
STEPHEN KNIGHT, California
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk

                                 ------                                
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                 ------                                

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
             John Clark Rayfield, Professional Staff Member
                 Dave Jansen, Professional Staff Member


















                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Donegan, RADM Kevin M. ``Kid,'' USN, Acting Deputy Chief of Naval 
  Operations for Operations, Plans, and Strategy (N3/N5).........     4
Michel, VADM Charles D., USCG, Deputy Commandant for Operations..     2
O'Donnell, MajGen Andrew W., Jr., USMC, Assistant Deputy 
  Commandant, Combat Development and Integration, Deputy 
  Commanding General, Marine Corps Combat Development Command....     3

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe, a Representative from Connecticut, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    36
    Donegan, RADM Kevin M. ``Kid,'' joint with MajGen Andrew W. 
      O'Donnell, Jr..............................................    43
    Forbes, Hon. J. Randy........................................    35
    Michel, VADM Charles D.......................................    38

Documents Submitted for the Record:

    Cooperative Strategy for 21st Century Seapower: Forward, 
      Engaged, Ready.............................................    59

Witness Responses to Questions Asked During the Hearing:

    Mr. Cook.....................................................   103
    Mr. Garamendi................................................   103

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]









                       NAVAL COOPERATIVE STRATEGY

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Seapower and 
            Projection Forces, Meeting Jointly with 
            Committee on Transportation and Infrastructure, 
            Subcommittee on Coast Guard and Maritime 
            Transportation, Washington, DC, Wednesday, 
            March 18, 2015.

    The subcommittees met, pursuant to call, at 2:48 p.m. in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the Subcommittee on Seapower and Projection 
Forces) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Welcome this afternoon to the joint Seapower 
and Projection Forces and Coast Guard and Maritime 
Transportation hearing on naval cooperative strategy.
    We thank our witnesses for being here.
    Normally, we would have opening statements by the chairmen 
and ranking members of both subcommittees, but today all of the 
chairmen and ranking members have agreed to waive their opening 
remarks. They will be placed in the record. Mr. Courtney, that 
is my understanding. And, Mr. Hunter, it is as well.
    [The prepared statements of Mr. Forbes and Mr. Courtney can 
be found in the Appendix beginning on page 35.]
    Mr. Forbes. So we are delighted today to have three very 
distinguished witnesses to appear before our joint hearing.
    We have Vice Admiral Charles Michel, U.S. Coast Guard, the 
Deputy Commandant for Operations; Major General Andrew 
O'Donnell, U.S. Marine Corps, Assistant Deputy Commandant, 
Combat Development and Integration, Deputy Commanding General, 
Marine Corps Combat Development Command; and Rear Admiral Kevin 
Donegan, U.S. Navy, Acting Deputy Chief of Naval Operations for 
Operations, Plans, and Strategy.
    General, we want to thank you for your work on this 
strategy. You have done a great job. We look forward to hearing 
your comments. We will put your full testimony in the record. 
But we would love to have you take 5 minutes or so to summarize 
it in any way that you would like to do so. And so I don't know 
which of you would like to start off, but we are going to turn 
the floor over.
    Admiral, we are going to recognize you now and look forward 
to your comments.

 STATEMENT OF VADM CHARLES D. MICHEL, USCG, DEPUTY COMMANDANT 
                         FOR OPERATIONS

    Admiral Michel. Well thank you, Mr. Chairman.
    Chairman Forbes, Chairman Hunter, Ranking Member Courtney, 
and distinguished members of the committees, good afternoon and 
thank you for the opportunity to testify today on the Coast 
Guard's role in the ``Cooperative Strategy for 21st Century 
Seapower: Forward, Engaged, Ready.''
    With the committee's permission, I also propose to enter 
the strategy document itself into the record.
    [The information referred to can be found in the Appendix 
on page 59.] <dagger>
---------------------------------------------------------------------------
    <dagger> Some unnumbered photographic pages at the beginning and 
end of the report were not reproduced.
---------------------------------------------------------------------------
    Admiral Michel. The Coast Guard stands ready alongside the 
Navy and Marine Corps, reaffirming our unified commitment to 
confront national security threats from and on the sea.
    The Coast Guard is a member of the Nation's five armed 
services and a global maritime force that complements the other 
sea services' roles in fulfilling the Nation's broad maritime 
goals. The Coast Guard leverages unique authorities, 
capabilities, and partnerships essential to national and 
homeland security.
    The Coast Guard is at all times an armed service under 
title 10 and simultaneously has broad law enforcement 
authorities under title 14. The Coast Guard provides its 
greatest contributions to the collective strategy in the 
critical areas of maritime security operations, all-domain 
access, and maintaining flexible, agile, and ready forces.
    Maritime security operations protect sovereignty and 
maritime resources, support free and open seaborne commerce, 
and deter and counter threats that seek to exploit maritime 
domain, including weapons proliferation, terrorism, 
transnational crime, piracy, sanctions avoidance, and unlawful 
seaborne migration.
    As the Navy and Marine Corps rebalance efforts to address 
national imperatives in the Asia-Pacific region, Coast Guard 
operations projected forward in the Western Hemisphere transit 
zone increase in importance.
    The Coast Guard's offshore patrol cutter, or OPC, 
acquisition is the key service recapitalization to maintain our 
forward-deployed, complementary, non-redundant capability in 
combating transnational criminal networks, the greatest threat 
to national security in this hemisphere. These assets can't 
arrive too soon.
    Our medium-endurance cutters currently on scene, which 
annually interdict more than three times the amount of cocaine 
seized domestically and at every air, land, and sea border of 
the United States, will be 55 years old, on average, when the 
first OPC deploys to the Western Hemisphere transit zone.
    The Coast Guard also plays a unique role in achieving all-
domain access. The Coast Guard's ability to operate in polar 
regions ensures the Nation's maritime security interests are 
met in the increasingly strategic Arctic Ocean as well as in 
Antarctica. Through its unique authorities in international 
partnerships, the Coast Guard has an active maritime security 
presence in 29 countries and has 60 bilateral agreements with 
foreign governments that enhance maritime governance, rule of 
law, and global leadership.
    In the cyber domain, Coast Guard authorities and 
responsibilities span the dot-mil, dot-gov, and dot-com 
domains. To accomplish the collective goals of this strategy, 
it is imperative for our forces to remain flexible, agile, and 
ready.
    Critical to remaining forward, on call, and ready 24 
[hours] by 7 [days] to engage in a strategic and complementary 
manner are investments in the OPC acquisition, improved 
aviation capabilities, integrated command and control systems, 
and a proficient workforce.
    In conclusion, the Coast Guard is fully committed to the 
strategic priorities of the strategy and remains a forward, 
engaged, and ready member of our sea services across the globe 
and at the strategic, operational, and tactical levels.
    Thank you for the opportunity to testify before you today 
and for all you do for the men and women of the Nation's Armed 
Forces and specifically the sea services. I look forward to 
answering your questions.
    [The prepared statement of Admiral Michel can be found in 
the Appendix on page 38.]
    Mr. Forbes. Admiral Michel, thank you so much for your 
testimony, for being here with us today.
    General, we now recognize you.

 STATEMENT OF MAJGEN ANDREW W. O'DONNELL, JR., USMC, ASSISTANT 
 DEPUTY COMMANDANT, COMBAT DEVELOPMENT AND INTEGRATION, DEPUTY 
  COMMANDING GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND

    General O'Donnell. Thank you.
    Chairman Forbes, Ranking Member Courtney, Chairman Hunter, 
Ranking Member Garamendi and distinguished members----
    Mr. Forbes. General, you might want to pull that mic 
[microphone] just a little closer. Sometimes it is difficult 
picking up.
    General O'Donnell. Thanks.
    The Marine Corps' ability to serve as the Nation's premier 
crisis response force is due, in large part, to this 
subcommittee's continued strong support. And on behalf of all 
marines, I thank you.
    Admiral Michel highlighted some key points from the 
``Cooperative Strategy of the 21st Century Seapower.'' And I 
would like to briefly highlight the role of your Marine Corps 
as an element of U.S. power.
    When it comes to being where it matters when it matters, 
the Marine Corps is committed to keeping our force forward-
deployed and forward-engaged. This means that today there are 
around 30,000 marines deployed in over 40 countries. These 
forces are currently conducting strikes in Syria and Iraq, 
training the Iraqi Army, and protecting our Embassy in Baghdad. 
They also include 22,500 marines in the Pacific, all of which 
are west of the International Date Line.
    These forces are conducting exercises and training with 
their Pacific partners and are staged to rapidly respond to any 
crisis or contingency in the region. As Admiral Donegan will 
mention, this strategy recognizes that we will continue to 
invest in strengthening alliances and, also, partnerships.
    Marines deployed onboard amphibious ships and those forces 
forward of station routinely conduct theater security 
cooperation exercises to ensure interoperability and enhance 
our partners' capabilities. There is no substitute for the 
mission. And as this committee has heard before, virtual 
presence is actual absence.
    This strategy paints a path forward in operating in an 
increasingly complex environment. It complements and amplifies 
the characteristics required of the Marine Corps and our 
capstone concept, Expeditionary Force 21. In doing so, it 
highlights the importance of naval forces in gaining and 
maintaining overseas access in peace or war.
    Your Navy and Marine Corps team provides the United States 
the ability to project sustainable combat power overseas 
without the need to ask for assistance or permission from 
anyone. This capability is essential to protecting our 
citizens, advancing our national interest, and promoting global 
stability.
    Today's security environments, as well as the challenges of 
constrained and uncertain budgets, require creative responses 
to fulfill our global commitments. Our forward-stationed and -
deployed marines remain our Nation's 911 force and readiness, 
and this strategy will ensure that they remain poised to do so 
in the future.
    Thank you for the opportunity to be here today. And I look 
forward to answering your question.
    [The joint prepared statement of General O'Donnell and 
Admiral Donegan can be found in the Appendix on page 43.]
    Mr. Forbes. Thank you, General.
    Admiral Donegan.

STATEMENT OF RADM KEVIN M. ``KID'' DONEGAN, USN, ACTING DEPUTY 
 CHIEF OF NAVAL OPERATIONS FOR OPERATIONS, PLANS, AND STRATEGY 
                            (N3/N5)

    Admiral Donegan. Chairman Forbes, Ranking Member Courtney, 
Chairman Hunter, Ranking Member Garamendi, distinguished 
members, thank you for the opportunity to appear before you 
today with my shipmates from the Marine Corps and Coast Guard 
to discuss this sea services ``Cooperative Strategy for 21st 
Century Seapower.''
    With the permission of the subcommittee, I propose to keep 
my remarks brief, but have submitted a separate statement for 
the Department of the Navy that----
    Mr. Forbes. All of the remarks will be so ordered. It will 
be put in the record. Thank you.
    Admiral Donegan. Thank you.
    Now I will offer a brief overview of the strategy and then 
touch on some of the--just a few of the highlights. First, the 
``Cooperative Strategy for 21st Century Seapower: Forward, 
Engaged, Ready,'' explains how we will build and employ the 
naval forces in support of national security interests. It 
describes a force built and ready for any challenge, from high-
end warfight to humanitarian operations.
    Now, the strategy was revised mainly due to changes in the 
geopolitical landscape since 2007, including threats from 
violent extremist organizations, like the Islamic State of Iraq 
and the Levant, evolving threats from North Korea and Iran, 
potential opportunities and challenges with a rising China, and 
recent Russian aggression in the Ukraine.
    Additionally, we face new and evolving challenges that 
threaten our access in cyberspace and the global commons. We 
have also sought to align our maritime strategy to new national 
strategic guidance and are very aware of the impact of changes 
in the current fiscal environment.
    Most importantly, this strategy describes a seapower that 
is critical for our Nation and our global economy. The strategy 
is underpinned by naval services with combat-credible forward 
presence that will be where it matters, when it matters, and 
our continued commitment to our allies and partners.
    We will also continue to meet the historic naval functions 
of deterrence, sea control, power projection, and maritime 
security. But our strategy has adapted, starting with an 
emphasis on warfighting first. In addition, we describe a new 
function, all-domain access, that focuses on maintaining the 
access we need to be where it matters, when it matters.
    The strategy balances the disposition of our forces and 
capabilities against regional threats. It also embraces 
innovation and efficiency in building a modern and capable 
force of more than 300 ships that will overcome any challenge 
to our ability to fight and win.
    Several key takeaways from the strategy include warfighting 
first. Defending our Nation and winning its wars is a core task 
of the U.S. Navy and U.S. Marine Corps. Due to varied threats 
we face as a nation, the sea services--U.S. Navy, Marine Corps, 
and Coast Guard--together with other services, must have the 
capabilities and capacity to defeat any adversary and defend 
the homeland while honoring our alliances worldwide.
    ``Where it matters when it matters'' means that, operating 
forward, we will provide the President options to defend our 
interests, deter and deescalate hostilities, respond to crises, 
and keep conflict far from our shores. The naval services also 
protect the strength of our U.S. economy by globally deploying 
that combat-credible power to ensure the unimpeded flow of 
commerce.
    We recognize one of our advantages as a nation and a Navy 
has been our extensive network of alliances, partnerships, and 
coalitions. By leveraging the robust capabilities of naval 
forces worldwide, we are better postured to collectively face 
new and emerging challenges in the 21st century.
    Accordingly, we are going to look for new ways to enhance 
relationships and form partnerships with traditional and 
nontraditional maritime partners who share a stake in 
international commerce, safety, security, and freedom of the 
seas.
    Our new essential function, all-domain access, will ensure 
that we organize, train, and equip to overcome threats and 
assure access and freedom of action in any domain to enable us 
to fight and win, should a war be inescapable.
    Our strategy also continues the efforts to rebalance forces 
to the Asia-Pacific. Evolving challenges in the region, 
including the recent activities of China's navy and the 
proliferation of anti-access/area-denial technologies, require 
that we maintain a leading role in that region.
    Our force design construct ensures our capability and 
capacity to support global presence requirements. In building 
the future force, we are going to balance investments in a 
flexible, agile force while appropriately developing our people 
as well as the operational concepts and capabilities to remain 
capable and combat-ready.
    Finally, I will note that the new strategy is not the end 
of our work. It is part of a larger effort throughout the Navy 
to energize our existing culture of strategic thinking that has 
led to innovation and an increase in operational excellence. 
This has already been instrumental in aligning our budget 
requirements and operational concepts. The strategic continuum 
will also align our strategic documents. It will oversee 
iterative wargaming, new concept development, and further 
increase those strategic linkages to the budget.
    In closing, our foremost priority remains the security and 
prosperity of our Nation, the American people, and our way of 
life. The strategy ensures that the Navy, Marine Corps, and 
Coast Guard remain forward, engaged, and ready to continue 
protecting American citizens and advancing U.S. interests as we 
have done for more than two centuries.
    Thank you.
    [The joint prepared statement of Admiral Donegan and 
General O'Donnell can be found in the Appendix on page 43.]
    Mr. Forbes. Admiral, thank you.
    And since we have a joint hearing today and a lot of 
members who want to ask questions, I am going to defer my 
questions to the vice chairman of the Seapower and Projection 
Forces Subcommittee and the chairman of the T&I [Transportation 
and Infrastructure Committee] Coast Guard Maritime 
Transportation Subcommittee, Mr. Hunter from California.
    Mr. Hunter. Thank you, Mr. Chairman.
    I guess my first question--or first comment is I am on the 
Armed Services Committee, too. We don't see the Coast Guard in 
here very often. I mean, it is kind of a strange thing that you 
are not in here more often. But it is good that you are at the 
same time.
    I guess the first question I have is about the Arctic. 
Let's talk about the Arctic. There is no plans to get an 
icebreaker. Unless the Navy buys in and unless there is a 
whole-of-government approach, we are probably not going to have 
an icebreaker. We are not going to buy one. We are going to 
have to lease one.
    But, at the very least, I would like to know what the Navy 
buy-in is and if the Navy really--do we care about the Arctic? 
And, if we don't, that is fine. If we do, what are we doing 
about it?
    Admiral Donegan. Sir, clearly you directed that at the 
Navy.
    This strategy clearly talks about the Arctic. It talks 
about it in a couple ways. We address it in relation to climate 
change and----
    Mr. Hunter. Admiral, let me be more specific.
    You need an icebreaker to get up there and break ice to be 
able to operate there. So I don't care about the climate change 
stuff at all, frankly. I am curious about the actual icebreaker 
and acquiring a ship that can break ice to get the Navy and the 
Marine Corps and whoever else up there or having to save 
somebody if you had to.
    Admiral Donegan. Yes, sir. As you know, the different 
missions and focuses are given to different services and 
different organizations.
    The U.S. Coast Guard was given the responsibility for the 
national icebreaking mission. So we are working closely with 
the Coast Guard as we identify the operating requirements and 
capabilities needed for future icebreakers.
    We absolutely agree in the future that we are going to need 
to be up there more than we are today. From the Navy side, we 
are increasing the exercises we do up there and our research so 
we understand that domain. But we do agree that in the future 
we are going to need to be up there more often.
    Mr. Hunter. Okay. The Coast Guard's budget is minuscule 
compared to yours. The Coast Guard's budget also got cut by the 
President by 26 percent, just their acquisition budget.
    So they are not going to be able to make the ships that 
they need going back about 10 years, let alone a $400 million 
icebreaker--$400 million to a billion-dollar icebreaker. It is 
going to take Navy money. It is going to take something like 
that.
    Admiral Donegan. Sir, as you know, the Navy has its own 
challenges in the shipbuilding account. And adding an 
icebreaker, not being something that was tasked to the Navy to 
do, would only pressurize our accounts further. But I fully 
understand your point of view, sir.
    Mr. Hunter. So you all recognize the mission. You write 
about the Arctic, but really don't have any way to get up there 
and do anything there. We just say it is important.
    Admiral Donegan. Sir, for us, as we talk about it in the 
strategy, we talk about when we need to be up there and for 
what missions that we have.
    And for the portion that I will mention--was going to 
mention a little bit earlier was our Arctic road map lays out 
for us how we are going to do that and when in the future we 
believe we have to be there more than we do today.
    And you are right, sir. As a country, we have to figure out 
and make sure that we have that access as those areas open up 
for us to move about and commerce starts to travel the routes 
that we know are opening now--beginning to open now.
    Mr. Hunter. That is all I have. Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Courtney is recognized.
    Mr. Courtney. Thank you, Mr. Chairman.
    And like Chairman Hunter, it is a pleasure to see the Coast 
Guard here in the room today.
    Last time Mr. Wittman and I were over in Brunei, we were 
touring the 5th Fleet, ships that were tied up there, and all 
of a sudden we saw two white hulls there and actually had a 
great visit onboard the ship. The captain, of course, was 
trained at the Coast Guard Academy in New London.
    But, frankly, it was nothing but high praise from the Navy 
partners in terms of the work that the Coast Guard was doing in 
that mission. And, obviously, this report really is just a 
confirmation of what is really happening. This isn't just sort 
of talk that we are hearing about today.
    I just really have one question, which is about the sealift 
and logistics force piece of the puzzle that you guys are 
working on here. I think you will agree that this is a vital 
piece of our ability to execute the national military strategy 
regardless of area of responsibility.
    Given the age of the Ready Reserve Fleet and its need for 
recapitalization, coupled with the fragility of the Maritime 
Security Program, what measures are being taken to ensure that 
we will have a viable and stable sealift and logistics fleet in 
order to execute this new maritime strategy?
    And anyone who wants to take that question, the floor is 
yours.
    Admiral Donegan. Well, sir, I think I will take it first 
and then see if there's others.
    I think you will see in the strategy that strategic sealift 
is a key element of the sea services' ability to sustain 
forward operations. In particular, in the strategy, what we 
talk about is it is expected that the naval services can 
establish a sea base.
    And from that sea base, we need to be able to do what it is 
that we need to do, whether that be project power, whether it 
be to launch the marines ashore on an amphibious operation or 
to just have the presence that we need to have in the area.
    Critical to that is being able to sustain that sea base. 
And that comes through a combination, as you know, of the 
combat logistics force and, also, a Maritime Security Program 
[MSP] and the other methods we use to support that force. 
Aerial refueling, for example, is another method. So we 
absolutely agree that it is a requirement.
    What we are working on now is defining--we understand the 
MSP program, for instance, is under pressure, especially as we 
move forward to the future. We understand that combat logistics 
forces that we have right now, we have to look at them closely. 
We have just completed a study on the combat logistics force 
piece of the question that told us that we have enough of the 
combat logistics force to sustain our operations in peacetime.
    And what we are going to do in the coming months is 
continue that work through our iterative wargaming process 
where we look at the sealift--military sealift security program 
and the combat logistics forces and ensure that, for each of 
the war plans that we have and the other future operations, 
that we have a method to be able to continue to sustain that 
sea base.
    It is absolutely essential that we do that, and we need to 
continue to make sure we have that in the future as some of 
these programs come under pressure.
    Mr. Forbes. Mr. Garamendi, I know you were detained and got 
here just a few minutes after we started. But we also have 
recognized--we put all of our opening remarks in the record. 
And yours will be placed in the record.
    And Mr. Garamendi is the ranking member of the 
subcommittee. So we now recognize you for any questions that 
you may have.
    Mr. Garamendi. Thank you very much, Chairman Forbes.
    My colleague, the chairman of the subcommittee, Mr. Hunter, 
raised the question of the Arctic and the lack of an 
icebreaker. This is really a question that goes to Admiral 
Michel, but, really, to inform my colleagues on the naval side 
of this committee that we are not going to be able to put 
together a new icebreaker without, as Mr. Hunter said, an all-
of-government strategy, one that we are going to have to take 
money from several different places in order to make this 
happen.
    The National Science Foundation is interested. The Navy is, 
as Mr. Hunter pointed out very carefully, and certainly the 
Coast Guard. So we are going to have to figure out some way to 
do that.
    My question really goes a little beyond the very important 
point that Mr. Hunter raised, and it goes to the existing Polar 
Star. You have authority, Admiral Michel, to take the ship out 
of the water, check it out.
    What is the status of that process?
    Admiral Michel. Well, there is a couple different Polar-
class icebreakers. The Polar Star is actually operational right 
now.
    Mr. Garamendi. The other one.
    Admiral Michel. Yeah. I know they get confusing.
    I just had the pleasure of presenting a master cutterman 
certificate to the captain of the Polar Star at McMurdo Station 
down in Antarctica here just about 6 weeks ago.
    So the Polar Star is active. It is actually on its way to 
regular maintenance, dry dock. The Polar Sea, on the other 
hand, has been inactive for a number of years. It had a major 
machinery casualty.
    There is money in the President's budget that continues the 
preservation work on there and begins the survey process of 
determining how much it would take in order to reactivate that 
ship.
    Understand both these ships, the Polar-class, were built in 
the mid-1970s. Some of the technology--actually, most of the 
technology on there has been--only exists in museums anymore. 
So this is kind of a challenge. Plus, Polar Sea, in part, was 
cannibalized so that we could get Polar Star underway. So it is 
in a different condition than Polar Star is.
    So we are getting--we have got a process here to try to get 
our arms around that and start looking at what resources it 
would take in order to activate a ship like that. And that is 
where we stand with the Polar-class reactivation.
    Mr. Garamendi. My question had a--four letters--``when'' 
question.
    Admiral Michel. Well, the preservation work is going on 
right now. We anticipate it is 15 to 18 months for us to get a 
good survey of the ship. It is going to have to be pulled out 
of the water. Again, we are going to have to do a serious 
survey on some very old machinery that you can't even really 
purchase anymore.
    So 15 to 18 months is our estimate so that we can get sort 
of a good cost on what that would take and a good timeline for 
how long it would take to get that reactivated. And, again, we 
would be looking for about--a 7- to 10-year reactivation 
timespan is what we would be shooting for.
    Mr. Garamendi. How about a new icebreaker? When will you 
finalize the requirements for that?
    Admiral Michel. So a new icebreaker we hit--we are in the 
early stages of an acquisition of that icebreaker. And we have 
been doing some of the work on that. The problem, sir, is that 
we have not built a heavy Polar-class icebreaker in this 
country for over 40 years.
    The Polar-class was the last that were done. These are 
exceedingly complicated ships just because they exist in one of 
the most challenging environments on the Earth. And they are 
basically designed to collide with blocks of solid ice. So this 
requires special steels, construction techniques, and things 
like that.
    You are looking at many years in order to be able to scope 
out a project like this, determine who could actually in this 
country build a vessel of this class. The only operators of 
heavy Polar-class icebreakers are us and the Russians. That is 
it. So there is very limited expertise in this area. It is 
going to be expensive, particularly if we have to build one.
    Mr. Garamendi. We know that we buy our rocket engines from 
Russia. Maybe we can buy a ship from Russia, since you seem not 
to be too anxious to get about the task.
    Admiral Michel. Well, it would obviously require 
legislative action in order to purchase a ship from Russia.
    Mr. Garamendi. We understand that.
    But what my question really goes to is that you seem to be 
hemming and hawing and putting off some day into the future 
what our subcommittee thinks to be a very, very important 
activity.
    Mainly, we need an icebreaker. The Navy needs an 
icebreaker. This country needs an icebreaker. And the United 
States is now the chair of the Polar Committee. And all I am 
hearing from you is, ``We are going to get about it someday.''
    Fifteen to eighteen months to figure out whether the 
present ship can even float and then who knows how long before 
the requirements are in place is not satisfactory.
    Admiral Michel. I understand the dire situation, sir. I was 
there looking at that only pathway in and out of Antarctica 
that our ship is the only one that can break.
    But here is where we are with acquisitions. As dire as we 
are on the Polar icebreaker--and I, as a sailor, understand 
that. It keeps me up at night--the OPC is even more dire. And 
that is a much larger class of ships that--even on the 
trajectory that we are talking about, 55 years old is the 
average age of those ships that will be coming offline.
    Mr. Garamendi. We understand that. Admiral, you seem not to 
understand where I am driving you.
    Your committee knows that it needs--that this country needs 
one more heavy icebreaker. We can't get by with just one. We 
need another one. The Navy and the Polar--all of those issues 
are before us.
    And what I am hearing from you is the inability for the 
Coast Guard to get us the specific information that we need to 
be able to make a decision about where to go with this issue.
    You are saying 18 months before we know whether we can 
rebuild the existing, and you seem not to--I don't know--5 to 7 
years or maybe longer before you are willing to give us the 
requirements for a new one.
    We want to make a decision. We cannot make that decision 
without the information that you need to develop for us sooner 
than later. I hope I am clear here.
    Admiral Michel. Yes, sir. And I will provide you with the 
information as soon as I can get it. This is a complex effort.
    Mr. Garamendi. I think I had best stop because I am about 
to climb up and down your back. That answer is not a 
satisfactory answer, as soon as you can get it. I am looking at 
a timeframe here where we have been prepared for more than a 
year and a half now to make a decision. We need your 
information in this timeframe.
    I understand we are not going to get it this year. But if 
you come to us next year with the same attitude and the same 
delay and obfuscation, I guarantee you that at least the 
ranking member of this committee is not going to be happy.
    I yield back my time.
    Mr. Forbes. We thank the gentleman.
    And we will go to Chairman Wittman.
    We do point out--I think our witnesses would love to build 
some more ships if we can give them some money to do it with. I 
know Admiral Donegan from his Navy account is looking at the 
Ohio-class replacement that is going to be $60 billion and 
scratching his head as to where we are going to get that.
    I know I was just looking at our combatant commander 
requirements for BMD [ballistic missile defense] capability. 
They go up from this year at 44 ships to needing 77 in fiscal 
year 2016. And, yet, we were getting ready to put aside 11 
carriers which had 5 of those BMD.
    And last year the Marine Corps had to fight to get its 
amphibious ship, which we wouldn't have got if it hadn't have 
been for Mr. Wittman's hard work on his subcommittee.
    So we want to continue to work with you guys. And I think 
Mr. Garamendi and Mr. Hunter are saying, if you can help get 
the information--we realize you can't build it without dollars. 
So we do thank you for your help in that.
    Chairman Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for your service to our 
Nation.
    I do want to drill down a little bit into the ``Cooperative 
21st Seapower Strategy.'' Some questions come up with that.
    Admiral Michel, you talked about flexibility and agility. I 
think that is critical. The question then becomes, though is: 
How do you operationalize it--and I want to get everybody's 
perspective--how do you operationalize it between the Joint 
Chiefs and the COCOMs [combatant commands], especially with all 
the challenges they have?
    And, as you know, the strategy now says we are going to 
have all-domain access in addition to the other four tenets of 
seapower.
    The question is: How do you achieve that? How do you make 
sure, too, that within your C2, your command and control--how 
do you make sure that you integrate Coast Guard into that?
    We see integration of Coast Guard in certain mission sets, 
but not in every mission set. And with there being 
organizational differences or separation between the Coast 
Guard and the Navy and Marine Corps, much of this sounds great. 
But the question is: How do you operationalize that?
    And then adding to the complexity of saying, ``Now we are 
going to have all-domain access,'' which means in the 
electromagnetic spectrum, in cyberspace, air, sea, land--I 
mean, that is a pretty complex environment. How are we going to 
achieve that? They are great assertions in the strategy. Give 
us your thoughts about operationalization.
    Admiral Michel. I will take it here from the Coast Guard 
perspective. First of all, any equipment we buy, we try to make 
sure it is interoperable with the other sea services.
    So we carry Navy-type, Navy-owned equipment on the majority 
of the vessels that we operate because we are required to 
operate as a specialized service of the Navy during time of war 
when the President directs. So we ensure interoperability 
through our equipment purchases.
    Mr. Wittman. Let me stop you right there because I think 
that is an interesting question I want to build on.
    As we are talking about shipbuilding and building lots of 
ships, we talk about building Navy ships, DDGs [destroyers], 
CGs [cruisers]. We talk about building medium-endurance 
cutters--the new class of medium-endurance cutters, the long-
range cutters.
    It seems like, to me, there is a great opportunity there to 
say, ``Listen, why don't we look at some common hull forms so, 
when we do acquisition, we are not acquiring Coast Guard ships 
here and Navy ships there.'' We can say, ``Listen, the national 
security cutter is real similar to the DDG''?
    Give me your perspective on how we can gain economies there 
to where--if we are going to have this cooperative strategy, 
does cooperation get down to the operational perspective of 
getting ships on the water?
    Admiral Michel. Well, it absolutely does. And we had a very 
robust discussion with the Navy as we were determining the 
requirements for the national security cutter, including 
looking at the LCS [littoral combat ship] and some of the other 
things that the Navy was doing.
    Now, the LCS didn't end up being exactly what we needed for 
the Coast Guard. It is a little bit more ship than I think the 
Coast Guard needed for its mission set. But a very robust 
dialogue went on in there.
    On the other vessels, the FRCs [fast-response cutters] are 
probably a little bit small for most of what the Navy is doing, 
and the OPC is going to have its own requirements.
    But, again, we try to--Coast Guard tries to borrow and 
leverage from the Navy as much as we possibly can. So when they 
get a weapon system or communication system or any type of 
intelligence capability, we are all over it with the Navy. And 
they are completely open with us because it is to our mutual 
benefit to actually share those systems. So we have got a very 
robust dialogue, sir.
    General O'Donnell. Sir, just a couple comments. Exactly 
what you are talking about. And you are well aware because you 
were the leader of all that when we got the LPD-17 hull form 
for what we are working on next.
    Probably the same thing that the admiral mentioned, too, 
with the Marine Corps. Our Naval Board [Navy and Marine Corps 
Naval Board] works very, very hard to make sure that we are 
aligned with other services and, as you know, with the 
Commandant's Planning Guidance not only with the Coast Guard, 
but with SOF [Special Operations Forces], and making sure that 
we are integrating with everybody.
    So that is the big thing about the C2 and then making sure 
that we all are using the same type of equipment and we are all 
on the same frequencies.
    The other comment that I would just make very quickly is 
that the things that the Marine Corps is doing, we had kind of 
a little bit of a heads-up. As you know, we rolled out EF-21 
[Expeditionary Force 21] last year, about a year ago this time. 
Of course, the Commandant came out with his Planning Guidance 
about 2 months ago. So we have already kind of hit the ground 
running. And we are pretty well aligned already with the tenets 
that are in this strategy.
    So we feel pretty good. We have already had a couple 
exercises. The EW-15 [Expeditionary Warfare 2015] just went up 
and we came up with 232 gaps that we have to work on. But most 
of them are not--luckily, are not going to be equipment pieces, 
just a little bit how we are doing business.
    Admiral Donegan. Sir, just the fact that we are here 
together gives you the indication--and this is the second time 
the three services have come together to build this strategy--
should give you an indication that we get it in terms of what 
you said, that our objective is to make sure that the 
individual pieces add up to more when we put them together. I 
think that is really what you are trying to say.
    There's a bunch of examples. The Naval Board was one. The 
Air-Sea Battle Office is another. It is now, as you know, 
chaired--we changed the name, Joint Access and Maneuver in the 
Global Commons. But it is now chaired by a marine. Marine 
three-star General Glueck is chairing that right now to drive 
us to that interoperability that you are talking about and take 
it beyond the strategy and put the strategy into action.
    Mr. Wittman. Sure. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Ms. Gabbard from Hawaii is recognized for 5 
minutes.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    My question was with regards to the portion of your 
strategy where you talk about the sea services deploying 
tactics, techniques, and procedures that target adversary 
vulnerabilities and you talk about striking the right balance 
between kinetic and non-kinetic actions.
    I would like to see if you can detail more what those non-
kinetic actions would look like.
    Admiral Michel. I will take it from the Coast Guard 
perspective. Just here in the Western Hemisphere, the Coast 
Guard and the Navy have worked together actually for decades 
against transnational organized crime, most of which isn't 
taken care of as a kinetic matter. It is actually taken care of 
as a law enforcement function.
    So Navy ships carry around Coast Guard law enforcement 
detachments so that we can use the sensor packages and the 
floating hull of the Navy to transport our law enforcement 
folks out there who have actually got the authority to take 
down the narcotraffickers [narcotic traffickers].
    And there is a whole range of other different activities 
that we work with them in sort of non-kinetic or asymmetric 
arenas. Piracy is another example of that type of work. And 
some of the other things I listed under maritime security 
operations, which have as their endgame, not a kinetic endgame, 
a smoking hull in the water, but a law enforcement action or a 
sanctions enforcement or other types of things. And that 
ability to cooperate between Navy equipment and Coast Guard 
authority has been gold here in a lot of missions.
    Ms. Gabbard. Thank you.
    Admiral Donegan. I think that a good way for us to explain 
the non-kinetic and kinetic--if we just talk about this new 
function that we talked about, which is all-domain access, it 
is a perfect example that we can describe the difference 
between kinetic and non-kinetic.
    If striking the balance means we can't have systems--things 
that just shoot down other things, for example, that is cost-
prohibitive. We will run out of money long before we run out of 
the enemy having an ability to get at us.
    So in our work in achieving all-domain access, it means 
working across the full spectrum, using all domains, to 
degrade, disrupt, deny, use the cyber and electromagnetic 
domain to make it harder for them to see us--the enemy to see 
us, for example and, therefore, they can't employ their weapons 
or, if they did, they wouldn't go to the right place so that we 
then can focus our kinetic resources on what got through after 
we did all that other work to make it much harder for them to 
be able to find us, see us, target us.
    Ms. Gabbard. You mentioned in your focus on the Indo- and 
Asia-Pacific region how, by 2020, approximately 60 percent of 
Navy ships and aircraft will be based in the region.
    What do you foresee could arise that would cause you to 
deter away from that plan between now and then?
    Admiral Donegan. Well, in other words, to not focus on 
the--or continue the rebalance----
    Ms. Gabbard. For you to not reach that size of presence in 
the Asia-Pacific region.
    Admiral Donegan. Since that is our focus area and most of 
the forces that we have there are already targeted to go 
there--in other words, we have the forces there. Our FDNF 
[Forward Deployed Naval Forces] forces are there. We have 
already begun establishing our LCSs in Singapore. We have 
already--the Marines have already moved some forces, as you 
know, into Australia. We have plans to move a sub--an 
additional submarine into Guam and additional ships into Japan, 
and they are on track and going to happen in the near term--it 
is going to be hard for us to come off of that because of the 
forces that are already there and, in the short term, what we 
expect to be there just in the next year or so, ma'am.
    Ms. Gabbard. Great. Thank you.
    I ask the question because I obviously believe it is 
important that we recognize and continue to uphold kind of the 
commitment--the strategic commitment that we have made to the 
region, recognizing the opportunity and the strategic necessity 
to do that.
    Given the environment that we sit in both fiscally and 
politically and otherwise, it is good to hear the affirmation 
that this is something that is well on its way.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Now recognize the gentleman from California, 
Mr. Cook, for 5 minutes.
    Mr. Cook. Thank you, Mr. Chair.
    I want to talk a little bit about maritime prepositioning 
and where we stand on that. I was led to believe we still 
haven't replenished the supplies that were in there from our 
previous engagements in the Middle East.
    Can you give me an update on where we stand on that and 
Diego Garcia, if you could?
    General O'Donnell. Yes, sir. I will get you all the 
information here. But let me just very quickly go over it.
    We still only have two squadrons. We shut down the other 
squadron. So we still have two squadrons with 12 ships.
    Each of those would have the mobile landing platform, which 
you are familiar with, the one--the exercises we have been 
doing off of Camp Pendleton, to be able to selectively offload 
equipment, load it onto transports, most likely, LCACs [Landing 
Craft Air Cushion], and put it towards the beach.
    So we still have the 12, with the mixture of the old and 
new, the T-AKEs being the new ones, that are built in San 
Diego. But most of the other ships that we are building right 
now that will be on that thing will be that 12, along with that 
mobile landing platforms that will help us move those things 
around.
    And the ships--it is my understanding--I will confirm 
this--all the ships have been replenished and all the gear is 
on the normal cycle to be turned into Blount Island and turned 
around on time.
    Mr. Cook. Do we have anything at Diego Garcia right now?
    General O'Donnell. I will have to get back to you on that. 
That is where the ships are. But I don't know if we have 
anything ashore.
    Mr. Cook. Yeah. And I am just a little nervous about--you 
know, the Pacific is--the world is very big, and it is a long 
ways from North Korea to Australia and to Guam. And, you know, 
I understand the concentration. And we were in Japan together, 
of course.
    The other thing maybe I wanted to follow up on is: What is 
the situation with Okinawa right now in terms of relocation? I 
know we had that issue in the past. And there has been a change 
in policy with the Japanese in terms of they certainly, I 
think, welcome military forces there. If you could just----
    General O'Donnell. Yes, sir. As I mentioned when I saw you 
in Yokota, I was 2 years at U.S. Forces Japan. And I saw the 
Congresswoman there, too.
    I don't think there is a change in policy. And this is not 
my lane. We can get you the information. I don't think there is 
a change in policy by the Abe government. They are going 
forward.
    There is that same issues down in Okinawa. But it is my 
understanding that the work is still going forward. And that is 
the agreement that we have between our two governments, that 
they will build the FRF [Futenma Replacement Facility] and we 
will move there.
    Mr. Cook. When is that supposed to be finished? Do you know 
offhand?
    General O'Donnell. I will have to get you that number. It 
is way down the road. As we said in Japan, we would tell them, 
``When you build it, we will move.'' So it is really kind of in 
their court right now. So we are working towards that.
    Mr. Cook. Okay. Okay.
    General O'Donnell. I will get you the exact date though, 
sir.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Cook. Okay. Thank you very much.
    And, by the way, I did want to throw in a plug for the 
Coast Guard. I had the pleasure of visiting the Coast Guard 
Academy, a great, great institution. I encourage all my 
colleagues to go there. I wouldn't recommend going there in the 
winter. Go to Hawaii. Visit the Congresswoman.
    I yield back.
    Mr. Forbes. Ms. Graham from Florida is recognized for 5 
minutes.
    Ms. Graham. Thank you, Mr. Chairman.
    You can go to Hawaii or you can come to Florida.
    I recently had a chance to tour the Coast Guard facility in 
my district. And thank you for all you do. And I specifically 
want to thank the Coast Guard for all that you did during the 
tragedy that occurred last week where we lost a helicopter 
training group of marines and soldiers. Thank you very much for 
all that you are doing.
    And thank you, gentlemen, as well, the other two 
representatives here.
    My question is for Admiral Michel.
    I understand the Coast Guard has been undergoing an 
acquisition program for a total of 8 national security cutters, 
25 offshore patrol cutters, and 58 fast-response cutters.
    In February of last year, the Coast Guard awarded three 
firm-fixed-price contracts for preliminary and contract design 
of the OPC. One of those contracts is in my district, Eastern 
Shipbuilding Group, which is located in Panama City, Florida.
    Now, I know that you can't comment further on any of these 
finalists, but I just want to be on the record of supporting 
Eastern Shipbuilding. It is a phenomenal small shipbuilding 
operation. I have toured it. And it is a great shipbuilding 
yard.
    With that said, Admiral Michel, can you comment on the role 
of the OPC in the naval cooperative strategy and, also, on the 
carefully crafted ratio of 8 national security cutters, 25 
offshore patrol cutters, and 58 fast-response cutters. I would 
much appreciate your response.
    Admiral Michel. Yes, ma'am. Well, the OPC is really going 
to be the workhorse of the Coast Guard fleet, and it replaces 
our medium-endurance cutters, two classes of those, our 210-
foot cutters, which will be 55 years old, if everything stays 
on track, and then our 270-foot cutters, which will be about 35 
years old when they come off the line with the OPC.
    We are very much looking forward to the design work that 
comes through, and we are very encouraged that we are going to 
be able to get an affordable and capable platform for the OPC 
as we move forward.
    But this really does go to the cooperative strategy because 
the OPC is going to be the bulk of the work that is going to be 
done here in the Western Hemisphere, which is Coast Guard work, 
by and large, that we have got to do, maritime security work, 
work against transnational criminal organizations, fisheries 
enforcement, search and rescue, marine environmental 
protection, responding to natural disaster, this whole basket 
of things.
    This is going to be the workhorse for the Nation. And it 
will allow the Navy and our other forces who are pivoting to 
other areas where we have national security concerns--they can 
rest assured that the Coast Guard is there because we are 
forward, engaged with our offshore fleet, of which the OPC is 
going to be the centerpiece of that fleet.
    It is going to be complemented by the higher-end NSC 
[national security cutter], but the OPC is going to be the 
workhorse for the Nation in that maritime security role. And we 
owe it to our sailors to give them decent equipment. And 55-
year-old ships, which can almost take Social Security--we 
shouldn't be putting our sailors out there.
    So, again, we very much appreciative of the support, very 
much look forward to the designs, and it is critical to the 
Nation.
    Thank you.
    Ms. Graham. Thank you. And I look forward to it as well.
    And I thank you, Mr. Chairman. I yield back my time.
    Mr. Forbes. I thank the gentlelady.
    Mr. Graves from Louisiana is recognized for 5 minutes.
    Mr. Graves. Thank you for being here today. I appreciate 
the opportunity to discuss with you a number of issues 
important to south Louisiana.
    Thank you for your update on the ``Cooperative Strategy for 
21st Century Seapower'' [CS-21]. It is certainly helpful to see 
the integration of forces.
    In that update, you are only as strong as your weakest 
link, right? And the Coast Guard does play an important role in 
CS-21, particularly the role of the OPC and the role of the C-
27Js.
    When you look at the budget request, you are not seeing 
additional funds in there. So I am having trouble understanding 
how the Coast Guard is actually going to fulfill its role 
without the resources there to, I guess, actually conduct the 
mission that is laid out in CS-21. And then what type of 
repercussions does that have with your sister agencies?
    Secondly, I think this is perhaps part of a larger problem, 
when you look across--as I recall, the AC&I [Acquisition, 
Construction, and Improvements] account this year does, as 
Chairman Hunter noted, experience a significant reduction this 
year. Yet, your mission is expanding, as has been discussed 
here today.
    And so can you help me understand or kind of connect the 
dots there?
    Admiral Michel. Well, it has been pretty clear and our 
Commandant has testified that we have had acquisition 
challenges, budget-driven in large part, and it has forced us 
to continue to extend the length of our ships, whether they are 
the medium-endurance cutters or the Polar-class icebreakers, 
where we have just got kind of a patchwork of things to be able 
to do.
    We have got the budget. We are going to deal with it. It is 
going to allow us to finish out the eight NSCs, which we need. 
It is going to allow us to move forward with the FRCs. But we 
have got some serious challenges, and I don't mean to downplay 
those.
    Mr. Graves. Thank you, Admiral.
    General and Admiral, could you just quickly comment. You 
know, again, focusing on the weakest link comment that I made 
earlier, do you see the Coast Guard with its aging fleet being 
able to fulfill the mission? Are they dragging you down--and I 
certainly understand acquisition challenges in other agencies 
as well. But are they dragging you down and challenging your 
ability to complete your mission?
    Admiral Donegan. I will start first. Well, the Coast Guard 
is not dragging us down by any means. They are all in in not 
only the strategy, but in working with us.
    Where they are challenged resource-wise, for instance, if 
we talk about the Pacific and the Asia-Pacific region, for 
example, if they can't get out there and participate in a 
particular exercise that we need to with a ship, they are there 
with the rest of their forces, whether they send a LEDET [law 
enforcement detachment] there or they have already built 
relationships with the countries we are going to work on.
    We are leveraging the relationships that they have already. 
Of course, we would like them to have more resources and ships 
to be with us in those regards. But given the challenges that 
they have, we are working as closely as we can to get the most 
out of it.
    So I look at it more as not particularly that you are as 
strong as your weakest link, but we are stronger because we are 
doing this together.
    General O'Donnell. Yes, sir. And I would just echo what Kid 
just said. I mean, by no stretch of the imagination are they 
dragging us down.
    But I think us working together and being here together 
kind of shows you that we are all in on this strategy and that 
we--where some of the things that perhaps we can do, the Marine 
Corps can do that the other two gentlemen either side of me 
can't do, we are going to fill those lanes.
    And, of course, there are plenty of gaps in the Marine 
Corps that both these services can help us with, too. So, no, 
by their being all in, I think we all are.
    Mr. Graves. Thank you.
    And I want to echo the comments of some of the more senior 
members in regard to the icebreakers. It seems like that is, 
once again, a capability that is potentially going to challenge 
all the services if it is not aggressively addressed.
    One other comment, Admiral Michel. I keep looking at your 
name. In south Louisiana, that would be ``Michel.''
    Admiral Michel. It actually is.
    Mr. Graves. Oh, is it? There we go. I was listening to 
other folks. I will stop following the elders here.
    Very quickly, in the Coast Guard's Western Hemisphere 
strategy, you list transnational criminal organizations as a 
mission of the Coast Guard and something you plan to address.
    Could you talk about, just briefly, how that dovetails or 
intersects with CS-21 and how CS-21 perhaps addresses that 
challenge.
    Admiral Michel. Sure. The Western Hemisphere strategy was 
designed by the Commandant specifically to work with CS-21 so 
that we could focus our core competencies here in the Western 
Hemisphere and allow our Navy/Marine Corps folks to focus in 
other areas.
    So the strategy itself, which talks about combating 
networks, primarily transnational criminal organization 
networks, which for a lot of these countries are national 
security threats--I mean, ask a country like Honduras, you 
know, the extreme murder rates and homicide rates and things 
that they have in there.
    And the Coast Guard's presence there really is critical to 
these nations because it polices off cocaine before it actually 
gets into Central America and creates death and devastation. 
Just the effectiveness of the Coast Guard last year seized 91 
metric tons of cocaine.
    That is about one and a half times all the cocaine seized 
within the United States last year by every law enforcement 
agency and all that seized at every air, land, and sea border 
of the United States combined. So that is how effective that 
is.
    And Coast Guard interdiction efforts are much closer to the 
head of the snake that starts this than a buy-bust on the 
streets of one of our hometowns. So it is a critical national 
security function. It is complementary to the Navy and the rest 
of our sea services and was designed exactly to work like that, 
sir.
    Mr. Graves. Thank you, Admiral.
    General, Admiral, thank you very much.
    Mr. Chairman, I yield back.
    Mr. Forbes. Mr. Cummings is recognized for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Admiral Michel, let me ask you just picking up on what you 
were just talking about. Before he retired, Admiral Papp 
indicated that there had been an approximately 30-percent drop 
in drug interdictions as a result of the cuts required by 
sequestration several years ago.
    What trends have there been in drug interdictions over the 
past year? And if we return to sequestration, what impact would 
that have on drug interdictions? I mean, you gave some very 
high numbers you just mentioned. And I am just wondering.
    Admiral Michel. Yes, sir. Well, I can tell you, based on 
long years of experience--I used to be the Director of Joint 
Interagency Task Force South [JIATF-South], which was right in 
the middle of this fight, sir.
    And here's the bottom line for major cutters of the Coast 
Guard. And this has been over many years. One cutter year's 
worth of effort seized about 20 metric tons of cocaine. That is 
about a billion dollars in traffickers' profits.
    Over many years, that was about the national average for 
all the cocaine seized within our borders every year by one 
ship of the Coast Guard. That is how effective maritime 
interdiction is. But you got to get the ships to do it.
    Right now the figures are here and there, but about three-
quarters of those high-confidence intelligence cases that we 
know are moving out there on the water we can't interdict 
because there is no ships in order to be able to do it.
    Mr. Cummings. So you know they are out there?
    Admiral Michel. Yes, sir.
    Mr. Cummings. You just can't get to them?
    Admiral Michel. Yes, sir. I, as JIATF Director, used to 
watch the vessels go by, but there were not enough ships out 
there to be able to action it. And then, once it gets into 
Central America, it is broken into such small parcels it 
becomes hard to police up. Plus, it creates corruption, death, 
destruction all its way, wherever it moves on its way up to our 
citizens.
    So it is tragic when it gets past us. But, again, that is 
forward, engaged, ready, complementary, non-redundant seapower 
capability of the Nation that works directly with our partners. 
So it is tragic that we have to see that go by. But if we don't 
build ships, that is what ends up happening.
    Mr. Cummings. What impact have asset failures had on the 
Coast Guard's ability to perform its mission?
    Admiral Michel. Well, lots of different things, sir. We are 
lucky that--we had a major casualty on Polar Star. But, thank 
god, it was kind of out of the ice by the time that it actually 
happened. But that is a daily occurrence for the Coast Guard.
    And our medium-endurance cutter fleet, our 210-foot fleet, 
over 20 percent of the operational hours were consumed by 
breakdowns. The ships are just that old that--I don't say we 
are in a death spiral yet, but we spend increasing amounts of 
lost operational time and continuous investment in these old 
class of ships that could be spent on recapitalization efforts.
    Again, I wouldn't want to say we are in a death spiral, but 
we are definitely playing with fire with these old ships. As a 
sailor who has been around a long time, these ships are really 
old and they need to be replaced.
    And it has an impact on a daily basis. And that is what 
keeps me awake. And I manage all this old infrastructure with 
all these pressing missions that are on top of us. That is why 
they pay me the money. But it is a very uncomfortable position, 
sir.
    Mr. Cummings. So what do you have to give up, then? So you 
are spending this time repairing old ships. You got them 
falling apart. And what gives? I mean, do you have a priority 
of what gives or is it just sort of haphazard?
    Admiral Michel. Sir, the risks to the Nation in the key 
areas of the Coast Guard that are fulfilled by these platforms 
increases every day. Whether it is risk of access to 
Antarctica, whether it is risk of access to the Arctic, whether 
it is fisheries enforcement, whether it is maritime law 
enforcement, whether it is our ability to respond to a 
hurricane or a national disaster or an oil spill or a mass 
migration incident, the risk in that fleet goes up every single 
day.
    Now, we have brought some of it down through the national 
security cutter and the fast-response cutter, which are way 
better assets than the ones that they replaced, but they are 
fewer in number. Our major cutter fleet is going to go even 
under the current plan from 44 ships down to 33 ships. Now, 
they are a little bit more capable ships, but, still, the 
numbers don't lie.
    So this is all about risk management. And that is what I 
spend the majority of my day, sir, is managing risk, where to 
place assets, which ones to bring in the yard, how long can we 
run the ships before they break or catch on fire. That is what 
I do on a daily basis, sir. And that is what we are incurring 
as additional risk.
    Mr. Cummings. Last question.
    Can you discuss the state of the Marine Safety Program. 
That is something I have always been very interested in. What 
is happening with it?
    Admiral Michel. Well, that is a whole other side of the 
Coast Guard that is critical to the national security and the 
economy of the United States. That is all ensuring that our 
waterways operate correctly and that we have got licensed 
mariners and safety equipment and all that.
    And that is definitely one of the priorities of the 
Commandant of the Coast Guard. Under our Energy Action Plan, he 
has asked us--well, he has tasked me with putting together an 
entire plan to revitalize our Marine Safety Program, which is 
another investment we are going to have to make to ensure that 
we can respond to new developments in offshore oil 
infrastructure or Bakken crude oil moving down the Nation's 
waterways or a whole range of different activities.
    The marine industry is incredibly vibrant in this country 
and uses technology more and more as time goes on. But to keep 
up with that, instead of being a regulatory hurdle to that 
industry, really requires significant investment and increased 
expertise and capacity in our people.
    For a while there, they were building out one tank barge a 
week down on the gulf coast. And each of those requires Coast 
Guard inspection. Each one of those requires a waterway to be 
operated safely on. And that is a whole other mission set of 
the Coast Guard. And the Coast Guard is stretched pretty thin.
    But you have got my commitment to work on that area, sir. 
It is on my task list that is getting pretty long these days.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Forbes. Mr. Byrne is recognized for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today, and I know that 
each one of you are dealing with lots of difficulties because 
of budget cutbacks, and I appreciate what you do. You are 
managing a very difficult situation with a very difficult 
budget situation. So it is our job to try to make that a little 
better for you.
    And by the way, Admiral Michel, I have got two Coast Guard 
bases in my district in Mobile, and I have been out in the air 
assets and in the marine assets, and I have seen for myself 
some of the challenges you've got in the Coast Guard, and my 
hat is off to you for what you have been able to do so far.
    Admiral Donegan, I have a question for you. The 2015 
strategy identifies the importance of U.S. naval cooperation 
with international partners, and I firmly believe the 
interoperability with our allies is critical to creating an 
agile force. Can you elaborate on the impact of having forward-
deployed assets, like the littoral combat ship in regions like 
the South China Sea, and what the presence of ships like the 
LCS means to our partners in that region.
    Admiral Donegan. Yes, sir. I certainly can. The--as you 
rightly said, this strategy really talks as one of the 
underlying--underpinning things, along with being forward, 
being engaged, and the engaged piece is with our partners, to 
build that alliance, to build those trusts--to build that 
trust.
    To have ships like LCS, as you know, we are putting four 
into Singapore, and we are going to get some more bang for the 
buck in terms of presence by rotating crews on those ships. 
That is part of the innovation piece that we are talking about, 
but it allows us to be responsive to things that happen that 
build up our credibility in the region, that when the allies 
turn and look, they see and know and are assured that we are 
going to be there.
    The LCS, for instance, was one of the first ships to--Fort 
Worth that we had over there that responded when we had the 
recent airliner go down. That is an example. When you have 
humanitarian assistance or disaster response exactly that kind 
of ship can provide, but also when we move into the higher-end 
piece, as you know, that ship fills gaps in mine warfare, 
antisubmarine warfare, and surface warfare. So it was also 
meant to contribute and will contribute in the event that we 
have to, together with our partners, get involved in any kind 
of conflict. So absolutely, that ship will bring us back a 
return on investment.
    It is also in other places, though. As you know, we are 
going to base them in San Diego and Jacksonville, Florida. So 
the one certainly based in Florida will have better access to 
support the Coast Guard and what we were just talking about in 
the SOUTHCOM [U.S. Southern Command] commander and the missions 
he has on counter-drugs.
    It is also going into--into Bahrain to replace the mine 
ships we have there, but as you know, building the partnerships 
amongst the navies in the Gulf requires that you have a ship 
that is compatible with them where they can see you operating 
side by side with their ships, and we can definitely do that.
    An example is, we just did a mine countermeasure exercise 
in the Gulf. We had on the order of 44 nations and 38 different 
ships participating in that event. Nowhere else can you bring 
together that many nations to build partnerships and build that 
trust that we are talking about.
    Mr. Byrne. Are you already working on plans for how you 
will utilize the LCS when it is redesigned to be a frigate?
    Admiral Donegan. Yes, sir. We are in the forefront of that, 
as you know, but it is going to bring additional capability, 
which means in those mission sets that I just talked about, you 
are talking about enhanced--enhanced reliability and 
survivability because of the weapons systems that we are 
putting out.
    Mr. Byrne. Well, thank you. I think the LCS has proven to 
be a very wise investment by the Navy and by the country, and I 
appreciate your plans and your usage of it, and I yield back.
    Mr. Forbes. I would like to finish up where we started by 
saying what a good job that the three of you did with all of 
the individuals working with you. We appreciate your hard work 
on this, but it is a piece of paper. So, Admiral Donegan, how 
do we go from strategic theory to operational effectiveness?
    Admiral Donegan. Sir, that is a great question, and the 
good news is while we were building the strategy, we took on 
the piece of how do we operationalize it? How do we implement 
it?
    First of all, we have to implement it together, and so 
because it is a strategy written by us together, all of the 
services are going to participate in--already participate in 
the process of implementation. Some of those processes are well 
underway with the Naval Board, with our Coast Guard and Navy 
warfighting talks, with the Navy and Marine Corps warfighting 
talks, but we also are planning on a series of--as you know, we 
have a classified annex is coming with this--after this 
strategy. That is part of the operationalizing when we bring 
together the staffs here in the Pentagon with our Naval War 
College which runs wargaming for us, with forward-deployed 
fleet commanders and combatant commanders and begin--and 
execute war games and modeling and simulation where we can 
iteratively look at the problems that we are facing in each 
region.
    Each region has a certain threat, and each region has a 
certain plan to deal with that threat, and what we are working 
forward to operationalize this strategy is, is now looking at 
the current way we would get at that threat, running it through 
a series of war games, and determining if we have any gaps we 
need to fill, and if we fill those gaps--how would we fill 
those gaps? I am sorry.
    It is not all about buying something new. It may be an 
adjustment to the concept. So we have concept development work 
going on. It may be something innovative like--like we are 
doing with high-energy lasers or railguns. Or it may be 
something in cyber. It may be another way to get at the 
problem, but it isn't just buying something, as I talked about 
before, where you get into this thing-on-thing problem. So we 
are doing that.
    As you know, the Navy has also developed a strategy 
subspecialty code. That is where we have identified the really 
smart folks, placed them in all the right places so we can link 
the strategy to what it is we go buy. Because in the end, this 
force will be what we bought and also how we employ it. So the 
first part gets at how we employ the second piece. We have to 
link this strategy to what we buy.
    So those are some of the things. There is more--more into 
the continuum that we call the strategic continuum that does 
that linkage.
    Mr. Forbes. We heard Mr. Garamendi, Mr. Hunter correctly be 
concerned about building icebreakers and more ships. If Mr. 
Wittman was here, he would be concerned about his aircraft 
carriers. Mr. Courtney would certainly be concerned about his 
Virginia-class submarine.
    As I look at the strategy, it is going to call for an 
additional 23 forward-deployed ships, and projects about a 60-
percent increase of Navy ships and aircraft in the Indo-Pacific 
region by 2020.
    Where do they come from? Do we build them? Do we bring them 
from other parts of the globe? And if we build them, do we have 
the industrial capacity to accommodate the strategy for either?
    Admiral Donegan. Well, sir, it is a combination of a little 
bit of each of what you said. We are building more. As you 
know, the Secretary was in here and talked to you about his 
plan for building some more, but it is also about the 
innovative employment of the assets that we do have.
    An example is if the ships that we can put forward bring us 
more return on investment. So in terms of the commodity that we 
give, and that commodity is forward presence, so the ships we 
put into Rota, Spain, we are putting four ships into Rota, 
Spain. They are high-end DDGs with the ballistic missile 
defense capability. If we were to resource that same commitment 
of presence from the United States, we would need 10 of those 
ships. So part of the increase in the presence that we are 
getting is the fact that--how we are employing those ships. The 
LCSs that we are putting into Singapore, we are putting four of 
those there. They are not going to be based with their 
families, but we are going to rotate crews.
    Our modeling and simulation tells us that we will basically 
get a twofold increase in presence because of that concept. So 
we will get--two ships, it would take back here, to keep that 
one forward, if that would make sense. If we were doing 
rotational, we would need twice as many LCSs to do that same 
kind of presence.
    So it is a combination of the innovative way we are 
employing it. It is a combination of growing the force to some 
extent with those that are already in the shipbuilding plan.
    Mr. Forbes. Please, General.
    General O'Donnell. Sir, thanks.
    I would just make one comment that we are already looking--
the Commandant has made it very clear that we are looking at 
all avenues to get marines out on ships.
    Now, most of the alternate platforms we talked about 
earlier coming from the MPS [maritime prepositioning ships], 
those are for the low end of the ROMO [range of military 
operations], but they could be out there doing theater security 
cooperation or humanitarian assistance and those types of 
things, and that helps take some of the pressure off the 
amphibs [amphibious assault ships].
    So we still have to--they are not a replacement for the 
amphibs, but they are complementary in that they could probably 
reduce some of the workload on those amphibs. And so we are 
looking very closely at that, and we are working, obviously, 
very closely with the Navy on that, and we see some--we see 
some real opportunity there to help reduce some of that thing.
    The last thing I would leave you with, and I didn't get a 
chance to mention before, but coming from 2 years in Japan and 
watching--watching--I can't speak to the South China Sea, but I 
certainly can speak to the East China Sea, and the Japanese 
Coast Guard taking the brunt of that. They have learned a lot 
watching how our United States Coast Guard and United States 
Navy work together very closely hand in glove, and the 2 years 
I was there I saw them--a lot more interoperability among their 
own ships by just watching and learning from the gentlemen on 
either side of me and their service. That is all.
    Mr. Forbes. Let's suppose my last question, and then Mr. 
Garamendi has a final question, but I know the President's--the 
Navy's President's budget request for fiscal year 2016 is 300 
ships. We are currently at 287, and let's just say we have one 
member that may slide in here, be just a little skeptical that 
we don't get there.
    If we do not get there, and we have a reduction in the 
number of ships, is this strategy still possible with your 
ships?
    Admiral Donegan. Sir, we wrote--the three services wrote 
this strategy based on what our assessment of that environment 
that I described earlier says that the Nation needs from the 
sea services.
    So the first thing that I will say is the targets that we 
want to get to and how we are going to employ the force and the 
way we are going to do it and the capabilities we need, and to 
some extent, the numbers are what we believe the Nation needs. 
Now, that said, if we get less than that, we are still going to 
move out on that trajectory with those priorities, and then we 
are going to be coming back and talking to you about the risks 
that then we are going to be taking and where that would be.
    We will still work as, you know, on innovation and 
efficiency to reduce that risk as much as we can, but we will 
be very open and transparent with where we see the risk coming 
if we are--if we are not given the resources to the level that 
we describe in some parts of this strategy.
    Mr. Forbes. Mr. Garamendi has a final question, and after 
his question, as I told each of you before, we are going to 
give you whatever time you need as a summation or if there is 
anything you need to clarify or add that we haven't put on the 
record.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman, and thank you for 
putting together this hearing. And, gentlemen, thank you for 
your participation and your service.
    Admiral Donegan, the revised Cooperative Strategy for 
Seapower implies the ready deployment of sea service assets, 
and it does, in fact, mention the involvement of the Military 
Sealift Command [MSC], and that its central contribution is 
that the MSC vessels and capabilities are available. And it 
does raise the question of whether our domestic sealift 
capacity is sufficient to meet the needs of this new strategy.
    Is it sufficient?
    Admiral Donegan. We believe right now it is sufficient. The 
question, though, I think that we have to address is looking 
forward as we continue our iterative wargaming and simulations 
and modeling that we are doing. As we move to the future and 
that force is potentially less available or comes under greater 
stress, we have to define--see if the--if the combination of 
all things that give us sealift, which is the combat logistics 
force combined with Military Sealift Command and the other--and 
the other sealift that we bring to support our sea base are 
enough to do it.
    I think that it is going to be a function of the scenario 
and the location of where it occurs, and we also have, as you 
know, because each of those vessels require escorts, we have to 
work that piece, too, to make sure that we have the right size 
and shape.
    Right now, for what we have in the current force, yes, and 
I think as it comes under stress because less of those become 
available, we are going to have to reevaluate that as we go 
along.
    Mr. Garamendi. Okay. We have some significant concerns 
about the future of the Military Sealift Command, the aging of 
the ships, and the like. I would like to get into more detail 
with you on that.
    Just another set of questions quickly. The Navy is using 
UAVs [unmanned aerial vehicles] off its ships, and, Admiral 
Donegan, my understanding is that you are advancing this 
program very rapidly and that you are--have some satisfaction 
with the potential that it brings to expanding the ability of 
the ship to see what is going on and to do its task. Is that 
the case?
    Admiral Donegan. Sir, specifically, the strategy talks 
about continuing to develop unmanned systems that improve our 
abilities to do what we need to do, and the unmanned brings 
endurance, for sure, and it brings capabilities that man does 
not--does not bring, and I am not just talking about in 
airplanes. So this is airplanes, this is subsurface, and this 
is on the surface. So this strategy has us looking hard at 
that.
    In terms of unmanned airplanes, as you know, we have a 
validated demand for our UCLASS [Unmanned Carrier-Launched 
Airborne Surveillance and Strike] system based--which is CVN 
[aircraft carrier] ISR [intelligence, surveillance, and 
reconnaissance], but it also has with it survivable and 
possesses a strike capability. That demand has been validated, 
and we are moving forward with that.
    Mr. Garamendi. Yeah. And I noticed, Admiral Michel, that 
the U.S.--that the President's budget does not have any money 
for UAVs. Are you working with the Navy vaulting off their work 
and their systems and the application of their systems to the 
Coast Guard?
    Admiral Michel. Sir, we have been all in with the Navy on 
unmanned aerial systems for things that might be useful to the 
Coast Guard. Some of the Navy systems are a little bit too 
high-end for us, but certainly in the areas--shipborne systems 
like Fire Scout or ScanEagle or the smaller ones, and we have 
operated a number of those systems off Coast Guard cutters.
    From the Coast Guard perspective on the unmanned aerial 
system, be extremely interested for the same reasons that the 
Navy is. You know, optimal sensor capability, extending the 
range of the ship. Very attractive. You know, whether those 
would be land-based or sea-based or whether they should be 
small and cheap or higher end and more capable, really the 
Coast Guard is evaluating all that because we have got to make 
sure that whatever investment we make there is a wise one, but 
the Navy has been--and the Marine Corps, for that matter, have 
been completely open with us and let us be full participants, 
sir.
    Mr. Garamendi. And I would hope you would do this at a 
little faster strategy, a little faster than the icebreakers.
    Finally, very quickly, the Navy is deploying a Poseidon UAV 
off the coast of California, probably for training purposes out 
of San Diego. The Coast Guard might consider being in some sort 
of a coordinated arrangement with the Navy since they will be 
looking at the same water you are presently unable to see. So I 
just--if you look into that and come back to me with the 
potential that it might have between the two forces?
    Admiral Michel. Yes, sir. We will do that.
    Mr. Garamendi. Thank you.
    I yield back.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Forbes. Mr. Hunter is recognized for any final 
questions he may have.
    Mr. Hunter. Thank you, Mr. Chairman.
    Just one quick question. General, what do you do when it 
comes to logistics right now? Do they change at all with this 
new plan? Meaning the amphibious logistics having stuff 
everywhere for when we are everywhere?
    General O'Donnell. No, sir, no. It is the same strategy. 
You were out, but we talked a little bit about that, and 
certainly with both the two squadrons that we have that are out 
there with the MPS, and then, as you know, the MLP [mobile 
landing platform] will bring that new capability of the 
selective offload and be able to bring those things ashore.
    But I think it kind of gets back to the--as you well know, 
it is--everything gets a vote. So it depends on really kind of 
what the situation is going to be. If it is on the low end of 
the ROMO or whether it is going in the high end, but we are 
definitely going to have to have the--and the Commandant has 
been working very hard for the last couple of months on 
wargaming some of the high-end stuff, the A2/AD [anti-access/
area denial], and I am sure you were briefed on it, but as we 
work through that, it will not change the fundamentals of the--
of the organization on how we do the logistics, but just a 
little bit on the distances and how we would protect it and how 
the sea base--and, of course, we are dependent on the other 
services to help us with that.
    Mr. Forbes. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Congressman Langevin 
was here a short time ago, had to leave, but he asked me if I 
could just to forward one concern he had and--or question he 
had. Again, I think as we all know, Jim does a lot of work in 
terms of cyber security with his subcommittee.
    And what he was curious about was that the strategy of all-
domain access in terms of whether or not that extends to 
cybersecurity, electromagnetic spectrum, intelligence command 
control, other non-kinetic regimes. And I was just wondering if 
any of you could talk about that a little bit for the record.
    Admiral Michel. I will talk about--excuse me, sir. From a 
Coast Guard perspective, I--that is a new term, and I think it 
is exactly the right term, and it encaptures those things 
beyond the physical domain, so the ability to conduct cyber 
operations, electromagnetic spectrum, and that is very 
important to the Coast Guard to be able to do that. We are 
incredibly interconnected. We have our own networks. We want to 
be able to exploit or do whatever we need to do regarding 
adversaries' networks, and we have a whole regulated industry 
that we deal with which has cyber challenges as well from a 
Coast Guard perspective. So we really have a prominent place in 
dot-mil, dot-gov, and dot-com, and I am not aware of anybody 
else in the government that has that array of expertise and 
access, but the ability to conduct cyber operations, the 
ability to do the things that are necessary in cyberspace as 
well as the nonphysical domains, absolutely critical to the 
Coast Guard missions. And we have got to build out a workforce 
and a capability in order to get at that. So thanks, sir.
    Admiral Donegan. Sir, quickly from our standpoint is the 
reason that we--this group together as we were building the 
strategy came up with the concept of all-domain access was 
partly because of this cyberspace issue that we see in front of 
us. So it is absolutely central to the piece about access 
because we are talking about in all domains. It doesn't have to 
be the physical space by any means. So we have taken this 
onboard pretty hard. As you know, we have an information 
dominance score that is tacked on this.
    We have--the Naval Academy has stood up their cyber center 
so we can start at the very beginning in the training for this, 
but where it is really going to come to an end is--point in the 
warfighting end of the business is the ability to have the 
access and use that domain to our advantage. First, we have to 
defend our systems, but we also have to be able to reach out 
and touch others to be able to potentially degrade, to 
potentially disable so that we are not constantly, as I said 
earlier, putting one of our things against another thing and 
losing that cost battle.
    Mr. Courtney. Okay. And so, again, Jim's sort of 
observation in the notes that he left here is that, you know, 
at some point this is about standing up the, you know, the 
human capital to be able to do that, and, I mean, it sounds 
like you are trying to sort of form these centers of excellence 
at the different training facilities and--yes, sir.
    General O'Donnell. Well, I would just comment that a Marine 
force in cyber is--they are all connected with each other, and 
of course to CYBERCOM [U.S. Cyber Command], but I think that 
kind of gets what you are talking, sir, is making sure you have 
the human capital and the capabilities and the--training the 
right people to do those things that it will be this part of 
the all-domain we talked about.
    Mr. Courtney. Thank you. Yield back.
    Mr. Forbes. And now I would like to give each of you an 
opportunity anything--last comments that you have, and in doing 
that, could you also include a little follow-up to Mr. 
Courtney's question. It is one thing to stand these things up. 
How do we measure success in the non-kinetic domains? That is a 
little trick here for us, and if you would include that in your 
summation. And, Admiral Michel, we are going to start with you 
since everybody slaughtered your name today, and thank you so 
much once again for being here.
    Admiral Michel. Well, thanks for giving the opportunity for 
me to be here. I think having the three sea services in front 
of you is really the message that I want to convey here, is 
that your sea services are working together on a daily basis. 
We have folks who work in each other's commands. We do 
operations together on a daily basis, whether in the physical 
domain or whether in the cyber domain. So the taxpayer gets a 
huge benefit from its investment in all three sea services 
because we're interoperable. We face similar or same 
challenges, and we work together on a daily basis in a very 
cooperative manner. So that is the one key takeaway.
    I know we focused a lot on Coast Guard acquisitions. I 
don't want to--we had our discussions regarding that, but your 
Coast Guard is ready. The Commandant reports that your Coast 
Guard is ready today. We are concerned about the risks that we 
are taking, particularly with aging equipment, but your Coast 
Guard is ``Semper Paratus'' [``Always Ready''], and I can 
report that to you today.
    Issue on cyber, I appreciate your comments, sir. This is a 
workforce issue. I don't think it is going to be--you know, 
regardless of whatever whiz-bang equipment, we are either going 
to win or lose on this based on our people and being able to 
train and retain those high-quality people that are going to be 
necessary to conduct the cyber operations that we need in order 
to make the Nation successful.
    Boy, measuring success in the non-kinetic realm is a lot 
harder in many ways, but as a Coast Guardsman, most of our 
endgames are not smoking holes in the ground. They are law 
enforcement actions, they are regulatory actions, or dealing 
with resilience and being able to rebuild infrastructure and 
different things like that. So the Coast Guard is comfortable 
with trying to measure success in non-kinetic solutions, but it 
is going to be very difficult.
    What I would say is our strategies, typically, if we can 
defend ourselves, make sure that we conduct our operations in 
whatever areas we are, and then be able to protect the American 
people and our other stakeholders at an adequate level, that is 
probably the ultimate measure of success in most of the non-
kinetic areas we operate, and that would include cyber.
    Mr. Forbes. General.
    General O'Donnell. Yes, sir. Let me answer your last 
question first about how do you measure success. You know, it 
is more than just being able to keep in your C2 systems up and 
running to be able to command and control and do the things 
that you want to do, but you have to be able to have those as--
as Admiral Michel had just mentioned how we are going to make 
sure we have people in there that are monitoring those types of 
things. But it is going to be very, very difficult to find out. 
You are only going to find out if you failed within those--
within those cybers. But all of us--I know all the services are 
working very hard on that.
    And the other part, the only thing I would comment about 
your other question was that everybody in this room manages 
risk, and we started about a year ago with Expeditionary Force 
21, the Commandant's Planning Guidance a couple of months. And 
as I mentioned to you before, we have already kind of moved out 
on making sure that we are doing all the experimentation and we 
are working those things to operationalize this strategy.
    Unfortunately, you know, we don't have a forecast on what 
the budgets are going to be and how they--but we only plan for 
those. But the basic, as I mentioned, the basic tenets of the 
strategy, whether it is the EF-21, CS-21, or the Commandant's 
Planning Guidance, sir, I will assure you that we are working 
to make sure those tenets stay the same, and that is being 
ready when this Nation is least ready, being forward deployed, 
forward engaged, building trust, working all those issues, and 
being the 911 force that you expect us to be, and there is no 
doubt about that; and whatever funding we end up with, we will 
execute our mission.
    Mr. Forbes. General, thank you. And, Admiral Donegan, we 
will let you have the last word.
    Admiral Donegan. Thank you, sir.
    I will start with getting at the hardest question you give 
us, which is how do we measure success in that domain. It is 
very difficult. We are working, and it is not one service that 
is working on this. As you know, Admiral Rogers and Cyber 
Command are working with all of us as we move forward to sort 
that out.
    In the near term, it is cyber hygiene and making sure that 
we have that piece right, that we have the basic things that we 
need to be doing as a service. In the longer term, though, it 
gets beyond--it gets beyond that. When we--when we are working 
in acquiring our systems, we have to acquire them with this in 
mind as we go forward, and one of the metrics needs to be that 
that has to be one of the things we are looking at as we go 
along, and it is, but it will need to continue to be. It wasn't 
necessarily one of the things in mind for some of the older 
systems that we bought. So we have to bear that in mind, but it 
is going to be difficult, and I don't think that it is going to 
be easy.
    And in closing, I think I can speak for all of us when I 
say we are very proud of the strategy that the three services 
put together. A lot of work went into it, but we are equally 
proud of the game plan we have for moving forward to put it--to 
continue to put it and implement it and make sure that we can 
execute the strategy, and we look forward to working with this 
committee and the rest of Congress as we do that.
    Mr. Forbes. Thank you all for being here today. Thanks for 
the work you have done, and please communicate to your staffs 
and the people that work with you how much we appreciate the 
jobs that they have done, and with that we are adjourned.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]
?

      
=======================================================================

                            A P P E N D I X

                             March 18, 2015

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 18, 2015

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 18, 2015

=======================================================================

      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 18, 2015

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MR. GARAMENDI

    Admiral Michel. In recent discussions with the Navy, the TRITON UAV 
is still in early testing phases. Any operational use of this 
capability is approximately 4 to 5 years away. The Coast Guard will 
remain in contact with the Navy and discuss options for collaboration, 
once it is operational.   [See page 27.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. COOK
    General O'Donnell. The Maritime Prepositioning Force (MPF) has been 
fully reconstituted after substantial quantities of prepositioned 
equipment were downloaded for Operations Iraqi Freedom (OIF) I and II.
    The status of the equipment aboard the Maritime Prepositioning 
Ships Squadrons (MPSRON) is ready for issue.
    Each ship of the MPF rotates through maintenance at Blount Island 
Command, Florida every three years. Equipment is downloaded and 
undergoes maintenance, upgrades, or replacement. Additionally, any 
equipment which may be damaged as a result of exercise use is repaired 
as rapidly as possible. In FY15 there are 12 scheduled exercises in 
which MPF equipment will be utilized.
    The MPF is made up two MPSRONs. MPSRON-2 is located in Diego Garcia 
and MPSRON-3 is located in Guam/Saipan. A third, MPSRON-1, was located 
in the Mediterranean until the end of FY12, when it was deactivated.
    Each MPSRON contains six ships. The six ships in each MPSRON are 
two large, medium-speed, roll-on/roll-off ships (T-AKR); three roll-on, 
roll-off ships (T-AK); and one dry cargo/ammunition ship (T-AKE).
    The T-AKEs are the newest additions to the MPF. While the T-AKRs 
and T-AK carry vehicles, equipment, and containerized supplies, the T-
AKEs carry palletized supplies which allows the distribution of 
tailored support packages to forces ashore.
    During FY15 and FY16, the MPF will receive two additional ships 
called Mobile Landing Platforms (MLP). These ships permit the transfer 
of vehicles and equipment from T-AKRs to smaller craft for movement 
ashore. They are, in effect, a ``pier in the ocean'' which will enable 
a Marine force to operate from the sea without the need for a logistics 
presence ashore.
    While our goal is to preposition 80% of a MEB's equipment set on 
each squadron, we currently have 67%. The ships currently assigned to 
the program are fully loaded, utilizing all available square-footage. 
It will take additional ships to reach that 80% goal.
    The Marine Corps does not preposition anything ashore in Diego 
Garcia.
    The only Marine Corps ashore prepositioning site is the Marine 
Corps Prepositioning Program-Norway (MCPP-N). Substantial quantities of 
prepositioned equipment were removed to support OIF and we have worked 
steadily to replace them. While this effort was going on, MCPP-N was 
reorganized to support a battalion-sized response/contingency force, as 
well as three reinforced company-sized units.   [See page 16.]

                                  [all]
</pre></body></html>
